Commission Work/Life Program

                     EXECUTIVE SUMMARY

We found that the implementation of the Commission Work/Life Program by the
Office of Human Resources and Administrative Services’ (OHRAS) was generally
effective, efficient, and in compliance with applicable guidance. Our recommended
enhancements include: reviewing the results of our employee survey, and
conducting similar surveys in the future; adding E-learning to the authorized
permissible uses of telework; adding a sample of courses typically approved for
reimbursement to the tuition assistance guidelines; and assigning Work/Life
coordinator duties to an employee in each field office.




                  OBJECTIVES AND SCOPE

Our objectives were to determine if OHRAS managed the Work/Life program
effectively and efficiently. We also sought to determine whether it was meeting its
intended goals and objectives, was consistent with Office of Personnel Management
(OPM) guidance, and compared favorably with work life programs at other agencies.

During the audit, we surveyed 219 employees, including 36 supervisors, from three
district offices, two regional offices and four Headquarters offices (111 responded to
our questionnaire), interviewed the program manager, and reviewed program
documentation. We also reviewed documentation and websites for Work/Life
programs at other agencies, including the Office of Personnel Management, the
National Science Foundation, and the Departments of Agriculture, Justice, and
Health and Human Services.

The audit was performed in accordance with generally accepted government
auditing standards between November 2003 and February 2004.
                                                                                         2




                                Background

OPM’s Work/Life Programs Center provides leadership and technical assistance to
help develop effective Work/Life programs in the federal government. Several
programs encouraged by OPM include family leave, part-time employment, flexible
work schedules, telework, education, fitness, health, and employee assistance.

OHRAS’s Branch of Policy, Recruitment, Disability and Work/Life Programs
administer the Commission’s program (known as the Work/Life Plus program). A
Work/Life Program Officer, assisted by members of the Branch, manages the
program. The Branch maintains an on-line work-life resource center that includes
descriptions of the Work/Life flexibilities offered, program newsletters, and links to
resources and referral services for a wide range of Work/Life challenges. OHRAS
has implemented many of OPM’s suggested policies and procedures to help
employees balance the demands of work and life, including family leave, part-time
employment, alternative work schedules, and telework.

       Family Leave Under the Family and Medical Leave Act eligible Federal
       employees are entitled to 12 administrative workweeks of unpaid leave
       during any 12-month period for certain family and medical needs. Employees
       may also use paid or unpaid leave of up to 24 hours per year to participate in
       a child’s school activities, and to accompany a child or an elderly family
       member to routine medical appointments.

       Part-time Employment Part-time employees may work from between 32 and
       64 hours a pay period on a prearranged schedule. Job sharing is a form of
       part-time employment in which a supervisor can arrange the schedules of two
       part-time employees to cover the duties of a single full-time position.

       Alternative Work Schedules Under a Flexitour schedule, employees may
       modify traditional work schedules by requesting set arrival and departure
       times within established flexible bands. Employees may also work a
       compressed schedule by fulfilling their 80-hour basic work requirement in a
       bi-weekly period over nine workdays. Employees who work a Flexitour or
       traditional schedule may work extra time, and earn up to two credit hours a
       workday and eight credit hours on a non-workday to accommodate their
       personal needs. Employees may carry over up to 24 credit hours from one pay
       period to the next.

       Telework Commission employees may telework with advance approval on
       an occasional basis (ad hoc) to work on a specific assignment for one to three
       days. Bargaining unit employees are eligible to apply for recurring telework
       arrangements for a maximum of two days per week. In addition, under
       limited situations, employees may request a work-at-home arrangement as a
       temporary medical accommodation for up to 160 hours.




COMMISSION WORK/LIFE PROGRAM (AUDIT 379)                             MARCH 29, 2004
                                                                                        3



OHRAS has also implemented initiatives on employee assistance, childcare,
education, and health and fitness.

       Employee Assistance Program (EAP) The Employee Assistance Program is
       an education and referral service that provides employees one-on-one support
       in resolving a wide-range of personal issues. The EAP also provides health
       and wellness information, self-help tools, and other resources on-line.

       Childcare The childcare initiatives include a referral service, back-up
       childcare service, and a childcare subsidy for employees with family incomes
       of $50,000 or less.

       Education OHRAS has implemented student loan repayment and tuition
       assistance programs. These programs pay certain employee educational
       expenses, including tuition costs for work related courses and repayment of
       student loans.

       Health Units Employees have access to Commission health units staffed by
       licensed nurses. The units offer a wide range of professional services,
       including emergency and walk-in care, immunization and allergy shots,
       access to a physician for physicals and consultations, and health awareness
       and screening programs.

       Fitness Centers Employees can participate in one of three on-site fitness
       centers in the Washington, DC area (Headquarters, the Operations Center
       and the 901 E Street building). Employees in the Regions and Districts are
       also encouraged to participate in centers located near their offices. The
       centers offer strength and aerobic conditioning equipment, fitness
       assessments and recommendations, educational materials and lectures,
       exercise classes, and health screenings. All employees can access an on-line
       monthly fitness newsletter issued by the headquarters center.




                           AUDIT RESULTS
We found that OHRAS has generally implemented the Commission’s Work Life
program efficiently and effectively. The program is meeting its goals and objectives,
is consistent with OPM guidance, and compares favorably with programs managed
by other agencies. The 111 employees responding to our questionnaire indicated
that they were generally satisfied with the program. They also indicated that the
most popular Work/Life programs were the transit subsidy, credit hours, and
alternative work schedules.

We asked employees if they agreed, disagreed or were neutral about several aspects
of the program’s implementation. Most of the questionnaire respondents were
satisfied with these items, as shown below.




COMMISSION WORK/LIFE PROGRAM (AUDIT 379)                            MARCH 29, 2004
                                                                                    4



                                                           Agreed
       •   Program helped them balance their work and life   69%
       •   Web site was user friendly                        74%
       •   Program information was readily available         81%


We are recommending several improvements to the program, as discussed below.


EMPLOYEE SURVEYS
During our review of the Work/Life programs at other agencies, we found that
several programs used periodic employee surveys to evaluate the effectiveness of
their programs. Employee surveys provide an opportunity for participants to share
their ideas and concerns.

For example, numerous employees responding to our survey suggested adding an
option of a four day work week, providing onsite childcare, expanding telework
opportunities, improving the fitness center at the 901 E Street building, and
reducing the cost of fitness center memberships.

Other respondents suggested weight watchers programs, transportation for disabled
employees, financial hardship services, and additional program information for new
employees. Our survey also identified a need for enhanced tuition assistance
guidance, as discussed below.


       Recommendation A
       OHRAS should consider whether to adopt any of the enhancements suggested
       by our survey respondents. It should also periodically conduct voluntary
       employee surveys concerning the Work/Life program.



EMPLOYEE TRAINING VIA TELEWORK
The Commission’s E-Learning Policy allows each employee a maximum of ten hours
per month for on-line training during the regular tour of duty (although this is not
intended to be used all at once). E-learning coursework can be completed wherever
an employee has Internet access. Many employees now have such access at home.
Most employees are authorized to work at home through a telework arrangement.
These employees could participate in on-line training through a telework
arrangement thereby enhancing both the Commission’s training and telework
programs.

       Recommendation B
       OHRAS should establish guidelines on combining work and E-Training while
       teleworking.




COMMISSION WORK/LIFE PROGRAM (AUDIT 379)                           MARCH 29, 2004
                                                                                         5



TUITION ASSISTANCE GUIDANCE
As stated in the Background, OHRAS has implemented programs to assist
employees with educational expenses. Employees can obtain reimbursement for up
to four approved mission-related classes a year, at an accredited institution of their
choice.

Some employees in our survey expressed confusion over the approval process for
tuition assistance. Apparently, employees need more detailed guidance. For
example, the guidance did not include examples of the types of classes normally
approved and did not state whether graduate classes were eligible.

       Recommendation C
       OHRAS should include in their revised policy a sample of courses normally
       approved for reimbursement in the tuition assistance guidance. The guidance
       should also state whether graduate classes are eligible for reimbursement.


PROGRAM COORDINATORS
The Work/Life Program Officer has to provide guidance and information to all
Commission employees. Reaching this many people requires many methods of
communication.

OHRAS could train coordinators in each office on the provisions of the Work/Life
program (especially the field offices). As a collateral duty, these coordinators would
then provide information and answer questions about the program. They could also
assist the Program Officer with data collection and feedback. Alternatively, OHRAS
could assign additional staff to assist the manager.


       Recommendation D
       OHRAS should solicit volunteers from each office to serve as Work/Life
       Coordinators, and provide appropriate training.




COMMISSION WORK/LIFE PROGRAM (AUDIT 379)                             MARCH 29, 2004
